                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                     Audit of International Boundary 

                                         And Water Commission

                                   Architect-Engineer Services Contract

                                      With S&B Infrastructure, Ltd.,

                                       Using Funds Provided by the

                                  American Recovery and Reinvestment Act


                                          Report Number AUD/CG-11-16, September 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                                United States Department of State
                                                                and tilt' Broadcasting Hoard of Governors

                                                                qffice of Inspector General




                                             PREfACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the International Boundary and Water Commission's (IBWC)
compliance with Federal, Department, and American Recovery and Reinvestment Act (Recovery
Act) acquisition management practices. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant, Cotton & Company, LLP, to
perform this audit. The contract required that Cotton perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Cotton's report is included.

       Cotton identified three areas in which improvements could be made: complying with all
relevant Federal laws and regulations, including those of the Recovery Act; having adequate
processes and systems in place to collect information required to be reported by the Recovery
Act; and providing complete and accurate information as required by the Recovery Act.

        OIG evaluated the nature, extent, and timing of Cotton's work; monitored progress
throughout the audit; reviewed Cotton's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Cotton's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.


                                   /;~J                                                     

                                       Harold W. Geisel
                                       Deputy Inspector General
                                      UNCLASSIFIED


 




Audit of International Boundary and Water Commission Architect-Engineer Services Contract
With S&B Infrastructure, Ltd., Using Funds Provided by the American Recovery and
Reinvestment Act



Office of Inspector General
U.S. Department of State
Washington, D.C.

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of the
International Boundary and Water Commission’s (IBWC) architect-engineer services contract
with S&B Infrastructure, Ltd. (S&B), using funds provided by the American Recovery and
Reinvestment Act (Recovery Act). We evaluated S&B’s compliance with relevant Federal laws
and regulations, including those of the Recovery Act; adequacy of processes and systems in
place to collect information required to be reported by the Recovery Act; and accuracy and
completeness of required report submissions. This performance audit, performed under Contract
No. S-AQM-PD-04-D0035, was designed to meet the objective identified in the section
“Objective” and further defined in Appendix A, “Scope and Methodology,” in this report.

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.


COTTON & COMPANY, LLP




Michael W. Gillespie, CPA, CFE
Partner

Alexandria, Virginia
September 2011


                                      UNCLASSIFIED

                                      UNCLASSIFIED





ACRONYMS
A-E            architect-engineer
Department     Department of State
FAR            Federal Acquisition Regulation
IBWC           International Boundary and Water Commission
IDIQ           indefinite delivery, indefinite quantity
OIG            Office of Inspector General
OMB            Office of Management and Budget
Recovery Act   American Recovery and Reinvestment Act of 2009
S&B            S&B Infrastructure, Ltd.




                                      UNCLASSIFIED

                                    UNCLASSIFIED




                                  TABLE OF CONTENTS


Section                                                                         Page 

Executive Summary                                                                 1

Background                                                                        1

Objective                                                                         2

Results of Audit                                                                  2

  Finding A: Contractor Did Not Comply With All Contract Terms and Conditions     2

  Finding B: Recovery Act Task Order Reporting Was Inaccurate and Incomplete      4

  Finding C: Required Subcontractor Certifications Were Not Obtained              5


List of Recommendations                                                           6
Appendices
A Scope and Methodology                                                          7

B S&B Recovery and Reinvestment Act-Funded Task Orders                            9

C International Boundary and Water Commission Response                           10 





                                    UNCLASSIFIED

                                       UNCLASSIFIED


                                    Executive Summary
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this report), to conduct
performance audits of contractors that received funding provided by the American Recovery and
Reinvestment Act of 2009 (Recovery Act) from the International Boundary and Water
Commission (IBWC). The audit objective was to determine whether contractors that received
Recovery Act funds from IBWC complied with relevant Federal laws and regulations, including
those of the Recovery Act; had adequate processes and systems in place to collect information
required to be reported by the Recovery Act; and submitted required reports that are accurate and
complete. One contractor selected for review was S&B Infrastructure, Ltd. (S&B).

        S&B was awarded Contract No. IBM05D0001, an indefinite delivery, indefinite quantity
(IDIQ) architect-engineer (A-E) services contract on January 20, 2005. S&B was subsequently
awarded 12 Recovery Act-funded task orders, totaling $24,997,836, for geotechnical analysis,
aerial survey, and design of rehabilitation improvements for the Upper and Lower Rio Grande
Flood Control Projects between March 3 and September 17, 2009.

       S&B generally complied with contract terms and conditions and relevant Federal laws
and regulations, including those of the Recovery Act. However, S&B did not communicate
whistleblower protection clauses to its employees and subcontractors, post accurate award date
and subcontract information on the Web site FederalReporting.gov, or obtain required
subcontractor debarment certifications.

        In its response to the draft report (see Appendix C), IBWC concurred with the report’s
four recommendations. Based on the response OIG considers the recommendations resolved,
and they will be closed pending OIG’s review and acceptance of documentation for the actions
specified. The response and OIG’s analysis are presented after each recommendation.

                                             Background
        IBWC is an international body composed of the United States Section and the Mexican
Section. Each section is administered independently of the other. The United States Section is a
Federal Government agency and has its headquarters in El Paso, Texas. IBWC operates under
the foreign policy guidance of the Department of State. The mission of IBWC is to apply the
rights and obligations that the Governments of the United States and Mexico assume under the
numerous boundary and water treaties and related agreements. IBWC’s obligations include
construction, operation, and maintenance of levees and floodway projects along the Rio Grande
River.

        The Recovery Act provided $220 million to IBWC for the Rio Grande Flood Control
System Project to evaluate needed repairs and/or rehabilitation of deficient portions of the flood
control systems, with all funds required to be obligated by September 30, 2010. Repairs and
rehabilitation entail raising levee segments to original design levels and reconstructing segments
where the integrity of the structures has been compromised. The project consists of two primary
phases: the Pre-construction Phase, which involves geotechnical investigations, environmental
                                            1
                                       UNCLASSIFIED
                                                  
                                           UNCLASSIFIED


documentation, and design, and the Construction Phase, which involves project construction.
IBWC projects can continue to expend Recovery Act funds for contracts as long as those funds
were obligated by September 30, 2010.

         S&B was awarded Contract No. IBM05D0001, an IDIQ A-E services contract on
January 20, 2005. S&B was subsequently awarded 12 Recovery Act-funded task orders under
the IDIQ contract, totaling $24,997,836, for geotechnical analysis, aerial survey, and design of
rehabilitation improvements for the Upper and Lower Rio Grande Flood Control Projects
between March 3 and September 17, 2009. Recovery Act-funded task orders awarded to S&B
are listed in Appendix B.

       Contract No. IBM05D0001 expired on September 30, 2009. As of November 2010, S&B
was performing work only to follow up on Requests for Information from the construction
contractors to meet its contractual obligations. S&B invoiced $24.7 million and had been paid
$24 million as of February 9, 2011, for the Recovery Act-funded task orders.

                                               Objective
        The audit objective was to determine whether contractors that received Recovery Act
funds from IBWC complied with relevant Federal laws and regulations, including those of the
Recovery Act; had adequate processes and systems in place to collect information required to be
reported by the Recovery Act; and submitted required reports that are accurate and complete.

                                          Results of Audit
        S&B generally complied with all contract terms and conditions or relevant Federal laws
and regulations, including those of the Recovery Act, and had adequate processes and systems to
collect information required to be reported by the Recovery Act. However, we did note three
areas, which we did not consider to be significant, that need to be addressed.

Finding A. Contractor Did Not Comply With All Contract Terms and
Conditions
         The contractor S&B did not comply with all terms and conditions of its IDIQ A-E
contract and Recovery Act-funded task orders. S&B did not post notices of employees’
whistleblower protections under the Recovery Act. The Federal Acquisition Regulation (FAR)1
states, “The Contractor shall post notice of employees’ rights and remedies for whistleblower
protections provided under section 1553 of the [Recovery Act].” S&B personnel stated that they
had not received the notices and did not fully understand what was required to be done to comply
with the requirements.




1
 FAR 52.203-15(a), “Whistleblower Protections Under the American Recovery and Reinvestment Act of 2009.”
(March 2009)
                                                2
                                           UNCLASSIFIED
                                                      
                                          UNCLASSIFIED


       The contractor S&B also did not include notice of whistleblower protections under the
Recovery Act in all 13 of its subcontract agreements. The FAR2 states that the contractor “shall
include the substance of” the previous clause in all subcontracts.

        Based on our discussions with S&B personnel and reviews of subcontract execution
dates, we determined that S&B was notified that the whistleblower clause applied after the
subcontracts had been executed. As a result, contractor and subcontractor personnel may not be
aware or have been aware of their rights and remedies for whistleblower protections under the
Recovery Act, and cases of fraud, waste, or abuse may not be reported to appropriate officials.
S&B officials stated that S&B’s Legal Department had forwarded pertinent sections of the
Recovery Act with instructions to post notices upon receipt of posters. S&B officials also stated
that they had issued, to all active Recovery Act-funded subcontractors, a supplemental agreement
to amend each subcontract to include the required clauses.

          Recommendation 1. We recommend that the International Boundary and Water
          Commission (IBWC) contracting officer for IBWC Contract No. IBM05D0001 ensure
          that the contractor S&B Infrastructure, Ltd. (S&B), obtains and posts notices of
          employees’ whistleblower protections under the American Recovery and Reinvestment
          Act of 2009.

          IBWC Response and OIG Analysis: IBWC concurred with the recommendation,
          stating that S&B “will be advised to comply with this requirement and post notices of
          employee’s whistleblower protections under ARRA” and that certification from S&B will
          be required by August 27, 2011.

          Based on the response, OIG considers the recommendation resolved. The
          recommendation can be closed pending OIG’s review and acceptance of documentation
          showing that S&B has obtained and posted notices of the whistleblower protections
          specified.

          Recommendation 2. We recommend that the International Boundary and Water
          Commission (IBWC) contracting officer for IBWC Contract No. IBM05D0001 ensure
          that the contractor S&B Infrastructure, Ltd. (S&B), notifies any subcontractor still
          performing on American Recovery and Reinvestment Act-funded task orders of the
          substance of the whistleblower protection clause.

          IBWC Response and OIG Analysis: IBWC concurred with the recommendation,
          stating that “as part of the response to Recommendation 1, S&B will be required to list
          current subcontractors notified of the substance of the whistleblower clause.”

          Based on the response, OIG considers the recommendation resolved. The
          recommendation can be closed pending OIG’s review and acceptance of documentation
          showing that S&B has notified subcontractors of the substance of the whistleblower
          protection clause.

2
    FAR 52.203-15(b).
                                               3
                                          UNCLASSIFIED
                                                    
                                             UNCLASSIFIED




Finding B. Recovery Act Task Order Reporting Was Inaccurate and
Incomplete

       The contractor S&B did not submit correct and complete reports onto the Web site
FederalReporting.gov as required by the FAR3 for its Recovery Act-funded task orders. The
FAR requires the contractor to report specific information, such as basic contract details, an
assessment of the contractor’s progress toward completion, and “any first tier subcontract funded
in whole or in part under the Recovery Act that is over $25,000.” However, S&B did the
following:

      	 It inconsistently reported the contract award date for the prime contract and subcontracts,
         and it erroneously reported the date of the Notice to Proceed or the date the contract was
         signed instead of the effective date.

      	 It incorrectly reported, in both quarters tested, a second-tier subcontractor under Task
         Order No. IBM09T0018 as a first-tier subcontractor.

        S&B personnel stated that the guidance available on Recovery.gov was not clear and that
the guidance provided by the IBWC contracting officers and Recovery.gov help desk was
inconsistent between reporting periods. Without complete and accurate reporting, relevant
contract information is not available to the Government and the public, thereby defeating one
goal of the Recovery Act: transparency.

          Recommendation 3. We recommend that the International Boundary and Water
          Commission (IBWC) contracting officer for IBWC Contract No. IBM05D0001 ensure
          that the contractor S&B Infrastructure, Ltd. (S&B), is aware of the reporting
          requirements of FederalReporting.gov under its Recovery and Reinvestment Act task
          orders and that S&B establishes controls for preparing and submitting reports that are
          complete and accurate.

          IBWC Response and OIG Analysis: IBWC concurred with the recommendation,
          stating that “the FederalReporting.gov website provides online training to contractors
          which we agree may be underutilized by the prime and subcontractors alike.” IBWC
          further stated that it will require S&B to certify that their ARRA reporting specialists
          have taken the seven Web-based seminars.

          Based on the response, OIG considers the recommendation resolved. The
          recommendation can be closed pending OIG’s review and acceptance of documentation
          showing that S&B is aware of the reporting requirements identified and that S&B
          establishes the recommended controls for reports.




3
    FAR 52.204-11(d), “American Recovery and Reinvestment Act – Reporting Requirements.” (March 2009)
                                                  4
                                             UNCLASSIFIED
                                                        
                                            UNCLASSIFIED



Finding C. Required Subcontractor Certifications Were Not Obtained
        The contractor S&B did not obtain all required certifications from its subcontractors.
Specifically, S&B did not obtain certification from any of its 13 subcontractors that, at the time
of award, “the subcontractor, or its principals, is or is not debarred, suspended, or proposed for
debarment by the Federal Government” in accordance with the FAR.4 The subcontractors
performed surveying, drilling, mapping, and other specialty functions. S&B officials stated that
S&B’s policy is to check the Online Representations and Certifications Application system prior
to contracting with subcontractors, as that system provides representations and certifications as
to whether a subcontractor is debarred or suspended. They further stated that they were not
aware that the FAR required the subcontractor to provide a separate certification.

         Not obtaining required certifications could result in subcontracts being awarded to
companies that have been debarred, suspended, or proposed for debarment. We were able to
verify that the subcontractors S&B used were not included in the Excluded Parties List System,
which is an electronic Web-based system that identifies those parties excluded from receiving
Federal contracts. S&B officials stated that they had initiated a process of sending emails to all
of its subcontractors requesting the required information.

        Recommendation 4. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract No. IBM05D0001 ensure
        that the contractor S&B Infrastructure, Ltd. (S&B), obtains certifications from all of its
        subcontractors performing on Recovery and Reinvestment Act task orders confirming
        that they or their principals are not debarred, suspended, or proposed for debarment.

        IBWC Response and OIG Analysis: IBWC concurred with the recommendation,
        stating that it will “require S&B to provide certifications from all of its subcontractors
        performing on ARRA task orders confirming that they or their principals are not
        debarred, suspended, or proposed for debarment.”

        Based on the response, OIG considers the recommendation resolved. The
        recommendation can be closed pending OIG’s review and acceptance of documentation
        showing that S&B obtains the certifications specified from all of its subcontractors.




4
 FAR 52.209-6(b), “Protecting the Government’s Interest When Subcontracting with Contractors Debarred,
Suspended, or Proposed for Debarment.” (Sept. 2006).
                                                 5
                                            UNCLASSIFIED
                                                        
                                       UNCLASSIFIED



                                 List of Recommendations 

Recommendation 1. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM05D0001 ensure that the contractor
S&B Infrastructure, Ltd. (S&B), obtains and posts notices of employees’ whistleblower
protections under the American Recovery and Reinvestment Act of 2009.

Recommendation 2. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM05D0001 ensure that the contractor
S&B Infrastructure, Ltd. (S&B), notifies any subcontractor still performing on American
Recovery and Reinvestment Act-funded task orders of the substance of the whistleblower
protection clause.

Recommendation 3. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM05D0001 ensure that the contractor
S&B Infrastructure, Ltd. (S&B), is aware of the reporting requirements of FederalReporting.gov
under its Recovery and Reinvestment Act task orders and that S&B establishes controls for
preparing and submitting reports that are complete and accurate.

Recommendation 4. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract No. IBM05D0001 ensure that the contractor
S&B Infrastructure, Ltd. (S&B), obtains certifications from all of its subcontractors performing
on Recovery and Reinvestment Act task orders confirming that they or their principals are not
debarred, suspended, or proposed for debarment.




                                            6
                                       UNCLASSIFIED
                                                  
                                       UNCLASSIFIED



                                                                                    Appendix A

                                 Scope and Methodology
        The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this appendix), to conduct
performance audits of contractors that received American Recovery and Reinvestment Act
(Recovery Act) funds from the International Boundary and Water Commission (IBWC). One of
the contractors selected for review was S&B Infrastructure, Ltd. (S&B), in McAllen, Texas.
The audit included Recovery Act funds for 12 task orders under indefinite delivery, indefinite
quantity architecture and engineering Contract No. IBM05D0001. The audit included Recovery
Act funds expended through September 30, 2010, with fieldwork conducted from October 2010
through June 2011.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

To meet our audit objective, we used the following methodology:

       	 Reviewed documentation available on the Internet for S&B and its subcontractors to
          evaluate their eligibility to perform on Government contracts and validate the
          organization’s entity status.

       	 Selected and tested a sample of Recovery Act reports from the Web site
          FederalReporting.gov to determine whether information reported was accurate and
          supported.

       	 Reviewed and evaluated subcontracts executed by S&B to ensure inclusion of proper
          clauses and receipt of debarment certifications.

       	 Reviewed task order documentation, IBWC monitoring reports, and construction
          contract documentation to ensure design work was completed both timely and
          accurately.

       We discussed tentative results of this audit with S&B officials on June 1, 2011.

Review of Internal Controls

       We reviewed the contractor S&B’s controls to ensure its own and subcontractor
compliance with contractual and regulatory requirements. We determined that S&B did not have
appropriate controls established to ensure compliance with contractual and regulatory
requirements. S&B did not have controls established to ensure that its subcontractors complied
with Federal Acquisition Regulation requirements as they pertained to providing contractor and
                                                7
                                        UNCLASSIFIED
                                                 
                                      UNCLASSIFIED


subcontractor personnel with notices of their whistleblower protections under the Recovery Act.
S&B also did not have appropriate controls established to submit accurate Recovery Act reports.
Proper controls were not in place to ensure that deliverables were free of design errors and
omissions.

       Implementing the recommendations contained in the report will improve controls over
ensuring compliance with required laws and regulations and the accurate reporting of Recovery
Act spending to the public.
 
Use of Computer-Processed Data

        We validated expenditures listed in IBWC’s budgetary and billing systems to ensure the
accuracy of reporting on FederalReporting.gov. We found no unexplained discrepancies in the
expenditure data reported. We did, however, find inaccuracies in the data reported on
FederalReporting.gov. However, these errors were caused by the contractor S&B’s
misunderstanding of reporting requirements and were not caused by automated data system
issues.
 
                                                                                                   




                                           8
                                      UNCLASSIFIED
                                                
                                        UNCLASSIFIED

    
                                                                                 Appendix B
                                                
              S&B Recovery and Reinvestment Act-Funded Task Orders

                              Award
 Task Order     Amount         Date                              Project Description
IBM09T0013       $612,066    3/3/2009     Geotechnical Analysis and Engineering Evaluation of
                                          Rectification Levee from International Dam to Riverside Weir.
IBM09T0018     $10,883,015   4/2/2009     Design of Rehabilitation Improvements for the Main and North
                                          Floodways and Arroyo Colorado Protective Levee Systems
                                          located within the Lower Rio Grande Flood Control Project
                                          (LRGFCP).
IBM09T0019        $91,721    4/2/2009     Design of Rehabilitation Improvements of the Hidalgo
                                          Protective Levee System, Phase II, revised within the LRGFCP.
IBM09T0020       $658,661    4/9/2009     Geotechnical Analysis of the LRGFCP Levee System within
                                          the Lateral A to Donna Pump to Retamal Dam Levee Reach.
IBM09T0024       $145,646    4/9/2009     U.S. Section, IBWC Project Development of the Rio Grande
                                          Flood Control System Lateral A to Donna Pump to Retamal
                                          Dam Levee Reach Aerial Survey.
IBM09T0025        $33,158    4/17/2009    Design of Rehabilitation Improvements of the Hidalgo
                                          Protective Levee System, Phase I, revised within the LRGFCP.
IBM09T0026       $873,663    4/20/2009    Design of Rehabilitation Improvements for the LRGFCP
                                          Lateral A to Donna Pump Levee and Retamal Dike Reach.
IBM09T0027      $2,306,453    5/1/2009    Upper Rio Grande Aerial Survey.
IBM09T0028        $176,327   6/22/2009    Bidding Services and Construction Management Services for
                                          the Banker Floodway North Levee Rehabilitation Project.
IBM09T0029        $79,635    6/22/2009    Design of Rehabilitation Improvements for the Easternmost 800
                                          LF of the South Levee of the Banker Floodway.
IBM09T0030      $7,621,982   6/22/2009    Design of Rehabilitation Improvements for the Rio Grande
                                          Canalization Protective Levee System located within the Upper
                                          Rio Grande Flood Control Project.
IBM09T0031      $1,515,509   9/17/2009    Design of Rehabilitation Improvements for Fabens Reach in El
                                          Paso County and Fort Hancock Reach in Hudspeth County
                                          within the Rectification Flood Control Project.
       TOTAL $24,997,836
    




                                             9
                                        UNCLASSIFIED
                                                
                                   UNCLASSIFIED



                                                                                            Appendix C

                              INTERNATIONAl BOUNDARY AND WATER COMMISSION
                                        UNITED STATES AND MEXICO

                                             August 23, 2011



IIl"_ ... " ............. .
,,,,.,, '''""....."
     United States Department of State and the Broadcasting Board of Governors
     OffICe of Inspector General
     Attn: Evelyn R. K1emstine, Auislanllnspedor General for Audfts
     2201 C, Street, NW,
     Washington, D.C. 20520"()308


     Subject: OIG Audit of International Boundary and Water Commission Construction
     Contract with S&B.


     Dear Ms. KJemstine:

     We are pleased 10 provide you the attached responses to the findings and
     recommendations shown in the draft audit report entitled Audit of International Boundary
     and Water Commission Construction Contract with S&B Infrastructure , using Funds
     provided by the American Recovery and Reinvestment Act Draft Report dated July
     2011 .

     We note that improvements haw already been made in the USIBWC Acquisition
     Division in response to the recommendations provided in the audit report. and specific
     responses to eadl finding and recommendation are provided.




                                           Commissioner


     Attachment as Stated
     cc: D. Forti. C. Parker


          The Commons, Bolid.n9 C. SUIte 100 . 41 71 N Mes, Street . EI Paso. Texas 79902-'.41
                     (915) 832-4100 . Fa~ (915) 832-4190 . hnp:llwww Ibwe.gov




                                        10 

                                   UNCLASSIFIED
                                             
                                        UNCLASSIFIED





Thank you for the copy of your report dated July 2011 ,     we   greatly appreciate the
opportunity to respond to the report .

The USIBWC generally agrees with all of the OIG recommendations , and each
recommendation and suggestion that was noted in the report is addressed below:

OIG recommendations and USIB'NC response:

   1. Recommendatioo 1. We recommend that the USIBWC contracting offlCef for
      IBWC Contract no. IBM05DOOO1 ensure that the contractof S&B lnfrastruct\Jre.
      Ltd .. obtai'ls and posts notices of employee's whistleblower protections under
      ARRA.

      Response: S&B Infrastructure will be advised to comply with this requirement
      and post notices of employee's whistleblower protections under ARRA . A
      certification from S&B will be required with in 15 days of this response.

   2. Recommendation 2. We recommend that the USIBWC contracting officer ensure
      that the contractor S&B Infrastructure, Ltd., notifies any subcontractor still
      performing on the ARRA funded task orders of the substarn:e of the
      wh istlebiower protection clause.

      Response:     As part of the certification at Response to Recommendation 1
      above, S&B will be required to list current subcontractor.! notified of the
      substance of the whistlebiower clause

   3. Recommendation 3. We recommend that the USIBWC contracting officer for
      IBWC Contract No. IBM09DOOO1 ensure thai the contractor S&B Infrastruc1ure,
      Ltd. (S&B), is aware of the reporting requirements of FederalReporting.gov under
      rts Recovery and Reinvestment Act task orders and that S&B establishes
      controls for preparing and submitting reports that are complete and accurate.

      Response :     The FederalReporting.gov website provides online training to
      contractors which we agree may be uooerutilized by the prime and
      subcontractors aHke. This office will require S&B to certify that their ARRA
      reporting specialists have taken the sev8fl (7) webinars.

   4. Recommendation 4: We recommend thai the USIBWC contracting officer for
      IBWC Contract No. IBM0500001 ensure that the contractor S&B Intrastruct\Jre,
      Ltd., obtains certifications from all of its subcontractors performing on Recovery
      and Reinvestment Act task orders confirming that they or their principals are not
      debarred, suspended, or proposed for debarment.

      Response : This office will require S&B to provide certifications from all of its
      subcontractors perfonning on ARRA task orders confirming that they or their
      principals are not debarred, suspended , or proposed for debarment.




                                           ,




                                             11 

                                        UNCLASSIFIED

                                                      
                               UNCLASSIFIED




T
hank you again for the opportunity to respond to this draft report and please advise us
of any follow-up questions, comments, or concerns about this response lene!".




                                           ,




                                    12 

                               UNCLASSIFIED

                                            
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

